  ACTIONS NEEDED TO
    MITIGATE RISKS
 ASSOCIATED WITH THE
ACCESS TO THE REGION'S
    CORE PROJECT
  Federal Transit Administration

  Report Number: MH-2010-066
   Date Issued: May 17, 2010
           U.S. Department of Transportation
                                                                   Memorandum
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Actions Needed to Mitigate Risks                                            Date:    May 17, 2010
           Associated with the Access to the Region's Core
           Project
           Federal Transit Administration
           Report No. MH-2010-066
  From:                                                                                    Reply to
           Joseph W. Comé                                                                  Attn. of:    JA-40
           Assistant Inspector General
              for Surface and Maritime Program Audits
    To:    Federal Transit Administrator
           This report presents the results of our assessment of the Federal Transit
           Administration’s (FTA) oversight of the Access to the Region’s Core (ARC)
           project in New York and New Jersey—one of the largest transit infrastructure
           projects in the United States. Project costs are currently estimated at more than
           $9 billion and FTA plans to commit a total of $3 billion through its New Starts
           program 1—the largest amount slated to date for any transit project in that program.
           In August 2009, FTA approved an early systems work agreement to expedite
           ARC, allowing the New Jersey Transit (NJT) Corporation, the project’s sponsor
           and manager, to incur costs of $1.35 billion, prior to meeting all Federal New
           Starts requirements, and initiate construction activities. FTA also awarded
           $130 million in American Recovery and Reinvestment Act (ARRA) funds to NJT
           for ARC project activities.

           Given the considerable investment in ARC and the risks inherent in a project of
           this magnitude, we evaluated FTA’s oversight. Specifically, we (1) determined
           whether project risks were identified and strategies were implemented to mitigate
           the risks; (2) identified any challenges faced in ensuring sufficient funding was
           available for the project; and (3) assessed NJT’s controls for combating fraud,
           waste, and abuse. To conduct our work, we evaluated FTA and NJT project
           documents related to costs, schedule, financing, fraud, engineering, and other


           1
               The purpose of the New Starts program is to provide Federal financial support for locally planned and operated
               public transit. Federal support is in the form of competitive, discretionary capital investment grants in local fixed
               guideway transit projects, such as commuter rail, light rail, heavy rail, bus rapid transit, trolleys, and ferries.
                                                                                 2


issues; reviewed applicable regulations, law, and guidance; and interviewed key
officials. We conducted our work from January 2009 through March 2010 in
accordance with generally accepted government auditing standards for
performance audits. Additional details of our objective, scope, and methodology
are described in exhibit A.

RESULTS IN BRIEF
FTA’s ARC oversight activities provide reasonable assurance that significant cost,
schedule, and funding risks have been identified, and FTA has taken proactive
steps to increase its oversight of ARC—as evidenced by requiring a project
execution plan. However, as of January 2010, FTA did not have finalized project
documents from NJT—the project management plan, project execution sub-plans,
master schedule, and financial plan—that describe strategies for mitigating
identified risks. The lack of finalized documents hinders FTA’s ability to oversee
NJT's mitigation actions. For example, without a completed master schedule and
its supporting schedule management plan, FTA lacks a tool for assessing NJT's
ability to meet important project benchmarks, such as the issuance of specific
construction contracts. Meeting such benchmarks is critical to keeping the project
on schedule and within its budget. Delays in developing one key set of
documents, the seven sub-plans, were due, in large part, to the lack of agreement
between FTA and NJT as to what constitutes compliance with the requirements of
the overarching project execution plan. In addition, NJT was inexperienced in
dealing with this new process. FTA acknowledged that some of the project
execution plan's processes were new to NJT and the industry as a whole, and that
developing such plans required thoughtful consideration. Yet, FTA has not issued
formal guidance on this process for other sponsors to follow on future major
projects, as has been done with other New Starts program requirements, such as
for financial plans. In addition, FTA identified several long-term risks that the
project faces, which if left unresolved, could lead to schedule delays or cost
increases. This underscores the need for FTA to continue its proactive oversight
of these risks. For example, one risk relates to obtaining the rights for access to
properties not owned by NJT in order to complete geotechnical and environmental
investigations. Delays in obtaining these rights would impact NJT's ability to
complete ARC's final design in a timely manner.

FTA must also ensure that NJT addresses certain ARC funding resource
challenges. ARC depends on several Federal, state, and local funding sources,
including $3 billion from the Port Authority of New York & New Jersey (Port
Authority). As of January 2010, full Federal funding had yet to be approved, and
the long-term availability of local funding was uncertain. FTA will need to
perform a financial capacity assessment on the availability of the local funding to
be provided. If one or more of these funding sources is delayed or is not available
                                                                                                                       3


in the expected amounts, the project schedule could be delayed because NJT might
not be able to cover costs on its own, resulting in NJT postponing certain project
activities.

Finally, the project’s management controls are insufficient to detect fraud and
ensure contractor integrity—in part because FTA did not request NJT to document
its fraud prevention program in the project management plan, a practice FTA has
used on other Region II major projects. Further, NJT opted not to use an
independent private-sector inspector general (IPSIG) 2 on the project—despite
evidence that an IPSIG can help identify problems in real time, such as internal
control weaknesses, contractor integrity and ethics lapses, and infiltration of
organized crime. The Office of Inspector General (OIG) and other agencies have
cited using IPSIGs as a best practice on large construction projects in New York
and New Jersey, such as the New York Metropolitan Transportation Authority's
(MTA) Fulton Street Transit Center.

We are making a series of recommendations to ensure that ARC oversight fully
addresses the heightened risks associated with proceeding under an early systems
work agreement and meets ARRA requirements. On May 3, 2010, FTA
responded to our draft report. FTA concurred with five of our recommendations
and partially concurred with the sixth. We consider the actions FTA has taken and
plans to take as being fully responsive to our recommendations. A complete
discussion of FTA's comments and our response begins on page 16.

BACKGROUND
Through ARC, NJT plans to construct a 9-mile commuter rail line between
Secaucus, New Jersey, and Manhattan, New York, that runs adjacent to Amtrak’s
Northeast Rail Corridor (see figure 1). The project includes construction of two
new tunnels under the Hudson River, a new underground passenger rail station
adjacent to New York’s Pennsylvania Station in midtown Manhattan, a storage
yard, and the purchase of passenger rail vehicles and specialized dual-powered
locomotives. NJT’s total estimated cost for the project is $9.23 billion, which
includes the cost of all rail car purchases to provide full-capacity 3 service in 2030.
The baseline cost estimate is $8.7 billion, which reflects the cost of rail car
purchases needed for initial service scheduled for December 2017.




2
    An IPSIG is an independent firm with legal, auditing, and investigative skills, employed by an organization to ensure
    compliance with relevant laws and regulations and to prevent, uncover, and report unethical and illegal conduct.
3
    The total number of rail cars needed to meet the project’s forecasted ridership in 2030. The $8.7 billion baseline
    estimate includes the cost of 110 of the total 196 rail cars and locomotives to be purchased.
                                                                                                                   4



                              Figure 1. Map of the ARC Project




     Source: NJT.


FTA’s Region II Office in New York City is responsible for providing oversight
of NJT’s management of the project. Region II receives support from a project
management oversight contractor (PMOC) in evaluating NJT’s technical
capability and capacity and from a financial management oversight contractor
(FMOC) in assessing NJT’s financial capability to construct, operate, and maintain
the project. FTA’s oversight role includes ensuring that potential project risks,
such as NJT’s inability to access committed funds, are identified up front and that
NJT takes action to mitigate these risks. Allowing ARC to proceed with an early
systems work agreement without meeting all New Starts full funding grant
agreement requirements adds to its inherent cost and schedule risks—heightening
the need for FTA to effectively oversee NJT’s management of the project. For
example, one of the inherent risks is that delays in FTA's awarding a full funding
grant agreement 4 for the entire $3 billion may hinder the project's progress
because it could result in NJT postponing the timely award of key construction

4
    Full funding grant agreements are multi-year contractual agreements between FTA and a project’s sponsor that
    formally define scope, cost, and schedule. These agreements also establish the maximum level of Federal financial
    assistance and outline the terms and conditions of Federal financial participation.
                                                                                  5


contracts due to the lack of a Federal funding commitment to cover these costs.

To successfully complete tasks necessary to ensure the project is within budget
and on schedule and meets full capacity service, NJT must coordinate with the
following third parties.

   • Port Authority provides ARC staffing and funding resources, and is
     responsible for acquiring access to property in New York.

   • Amtrak works with NJT to address environmental, property acquisition,
     force account, and traction power issues. Amtrak will also provide a
     portion of the funding on the Portal Bridge project—a project that is critical
     for ARC to meet its expected service capacity.

   • Con Edison provides NJT with access to its property in order to perform
     environmental investigations and NJT must acquire property from Con
     Edison for construction of the Manhattan Tunnels.

In January 2009, FTA approved ARC for entry into final design—the last
milestone in FTA’s New Starts evaluation process before approval of a full
funding grant agreement. Exhibit B depicts the New Starts planning and
development process, and outlines key milestones in the project’s history.

FTA LACKS FULLY DEVELOPED PROJECT DOCUMENTS FROM
NJT THAT ARE KEY TO IDENTIFYING AND MITIGATING
PROJECT RISKS
FTA’s ARC oversight activities provide reasonable assurance that significant cost
and schedule risks have been identified. However, as of January 2010, FTA
lacked finalized project documents from NJT—the project management plan,
project execution sub-plans, master schedule, and financial plan—that describe
strategies for mitigating identified risks. The lack of finalized documents hinders
FTA’s ability to hold NJT accountable for taking risk mitigation actions. For
example, without a completed master schedule and its supporting schedule
management plan, FTA lacks a tool for assessing NJT's ability to meet important
project benchmarks, such as the issuance of specific construction contracts.
Meeting such benchmarks is critical to keeping the project on schedule and within
its budget. Moreover, ARC faces known long-term "watch list" risks, such as
property access rights, that require continued vigilant oversight by FTA because, if
these "watch-list" items are left unresolved, they could lead to schedule delays or
cost increases over time.
                                                                                                                       6


FTA Implemented the Use of a Project Execution Plan To Identify
Significant Project Risks
In January 2009, FTA and NJT agreed to the requirements of the project execution
plan and its sub-plans, which provide reasonable assurance that processes are in
place to identify risks related to costs, schedule, project management, project
financing, construction quality, engineering, and other issues. FTA will need to
continue to use the project execution plan and its sub-plans to identify risks and
monitor NJT's management of the project. In addition to the risks identified in the
project execution plan, FTA’s PMOC and FMOC also identified technical and
financial risks in their ongoing assessments. For example, the PMOC's September
2009 monthly status report identified a risk of delays in obtaining the rights for
access to properties in New York and New Jersey in order to complete
geotechnical and environmental investigations. Lack of access could impede
NJT's progress in completing the project’s final design. The FMOC, in its May
2009 draft financial assessment report, highlighted risks to the availability of
Federal and local funds that NJT needs to construct the project. NJT is aware of
these risks and committed to undertaking a high degree of risk mitigation to keep
the project on schedule and within budget.

Lack of Fully Developed Project Documents from NJT Impedes FTA's
Oversight
When construction began, NJT was still developing the project management plan,
project execution sub-plans, master schedule, and financial plan—key documents
FTA needs to oversee NJT's efforts to mitigate project risks. The project
execution sub-plans are needed to identify mitigation strategies that will provide a
level of assurance that NJT will address identified risks, allowing ARC to proceed
through final design and be constructed on-budget and on-schedule. Despite
lacking fully developed documents, FTA allowed the Manhattan Tunnels
construction contract to proceed in June 2009 and approved an early systems work
agreement in August 2009, in part to avoid delays and higher costs.

FTA requires a project management plan for all New Starts projects. 5 However,
ARC's project management plan is incomplete. FTA “conditionally” approved
NJT’s ARC project management plan in May 2009, and notified NJT that many of
the project execution sub-plans, which were incorporated by reference in the
document, were not acceptable. In June 2009, NJT submitted a revised project
management plan to address these deficiencies. In July 2009, FTA notified NJT
that the June 2009 project management plan and sub-plans were still not fully


5
    A sponsor's project management plan explicitly defines all tasks necessary to implement a major capital project. The
    plan should include organization's staffing, project budget, construction schedule, and quality assurance and quality
    control programs.
                                                                                                                       7


compliant with the project execution plan's requirements. For example, the project
management plan still lacked acceptable organizational charts and a discussion of
management controls. These plan elements are critical to FTA’s oversight of the
project. Organizational charts are needed to show the responsibilities and
relationships for NJT and Port Authority staffs; identified controls are needed to
minimize the risk of not achieving the project execution plan's requirements; and a
strategy for NJT staff involvement is needed to better ensure effective systems
operations. When FTA approved NJT’s early systems work agreement in August
2009, 6 FTA stipulated that before executing the full funding grant agreement NJT
must have a fully approved project management plan and provide evidence that it
is operating in conformance with the plan.

As of January 2010, NJT’s seven project execution sub-plans remained
incomplete, despite the project moving forward. Table 1 describes the purpose of
the seven sub-plans.

                      Table 1. ARC Project Execution Sub-Plans

            Sub-Plan                                                Purpose
    Quality Management                   Ensures that all necessary programs are established and closely
                                         followed.
    Cost Management                      Provides reliable cost information and requires cost estimates to
                                         be documented and maintained.
    Schedule Management                  Provides reliable schedule information and requires schedules
                                         to be documented and maintained.
    Risk Management                      Provides a formal, systematic approach for the management of
                                         costs and schedule against a baseline by identifying project
                                         risks and a framework for mitigating risks to avoid their
                                         potential impacts.
    Cost and Schedule                    Ensures that there are sufficient cost and schedule
    Contingency Management               contingencies available at key milestones for the completion of
                                         the project.
    Secondary Cost and                   Provides additional cost and schedule plans and assesses NJT’s
    Schedule Mitigation                  capacity to handle risk events or mitigation activities that are
    Capacity                             project-phase specific.
    Geotechnical Risk                    Identifies geotechnical-specific cost and schedule risks and
    Mitigation Capacity                  mitigation strategies.




6
    There are few statutory requirements for awarding an early systems work agreement, and FTA has not issued related
    regulations or written guidance. The Secretary may legally make such an agreement if a project’s Record of
    Decision has been issued and there is reason to believe that: (1) a full funding grant agreement will eventually be
    made and (2) the terms of the agreement will promote the project’s ultimate completion more rapidly and at less cost.
                                                                                                                   8



The continued lack of the risk management sub-plan is of concern, particularly
since FTA rejected NJT’s earlier risk management sub-plan because it did not
meet requirements and omitted a key deliverable, the geotechnical risk allocation
plan. 7 When FTA allowed the procurement of the design/build contract for the
Manhattan Tunnels work to proceed—just 5 months after approving entry into
final design in January 2009—the entire project execution plan processes were not
in place to mitigate schedule slippages and cost increases. FTA officials
acknowledged that this was an unusual step for a project of this size; but they
believed it was the best way to proceed so that the project could be completed on
schedule and within budget. In our view, this decision provides little incentive for
NJT to address FTA's concerns, and inhibits FTA’s ability to hold NJT
accountable for completing risk mitigation actions. Ultimately, the full impact of
project risks and the effectiveness of NJT’s mitigation efforts will not be known
until after FTA fully approves all required sub-plans and NJT implements them.

Recognizing NJT's inexperience with the processes involved in developing and
implementing a project execution plan, FTA provided guidance to NJT on the
development of sub-plans. Region II officials believe they provided NJT with
adequate guidance on the principles involved in developing acceptable sub-plans.
However, according to NJT, delays in completing the project execution sub-plans
are due largely to the lack of clear FTA guidance on documentation requirements. 8
When NJT asked FTA for guidelines to follow in developing its project execution
plan, FTA suggested that NJT follow the general criteria found on FTA’s web site
and contact the New York MTA for guidance because it was one of the first New
Starts sponsors to develop a project execution plan. According to NJT officials,
neither source provided relevant guidance. In a July 2009 memorandum
recommending approval of the early systems work agreement, FTA acknowledged
that some of the project execution plan's processes were new to NJT and the
industry as a whole, and that developing such plans required thoughtful
consideration. However, FTA has not issued a formal guidance document on
preparing such plans. The lack of guidance has not only resulted in NJT
generating multiple drafts for FTA's review; but FTA staff has had to rely on
professional judgment, based on lessons learned from other large projects, to
determine what was acceptable.




7
    The geotechnical risk allocation plan formally documents NJT’s approach to risk allocation for the geotechnical
    scope of work between the contractor and NJT. This geotechnical plan is critical, given the extensive tunnel work
    involved in the project.
8
    A table in FTA’s guidance on the full funding grant agreement process refers to a specific regulation or policy
    document for each step in the process, except the step related to the project execution plan, which recommends
    contacting a FTA regional office.
                                                                                  9


The project’s master schedule and financial plan were also incomplete when the
early systems work agreement was approved in August 2009. Our engineering
team reviewed the latest master schedule and several contract-level schedules that
FTA and NJT provided. The team concluded that the project lacked a baseline
master schedule with planned activity benchmarks and durations that could be
compared against the ongoing activities for the purpose of measuring the project's
progress. Additionally, the durations and dates for activities in the master
schedule did not correlate with the durations and dates that contract-level
schedules reported for the same activities. Without a master schedule that ties
together the work of all contracts and its supporting schedule management plan—
which is needed to provide reliable schedule information—NJT's ability to identify
and track the time and resources used to complete each project task is impaired.
Accordingly, FTA does not have an important oversight tool it needs to assess
NJT's efforts in managing delays and controlling cost growth.

In August 2009, FTA estimated that potential project delays ranged from 9 months
to 22 months—based on the degree of risk assigned to project activities. Yet these
estimates are based on schedule data from January 2008—the same data FTA used
to approve the early systems work agreement. According to our engineering team,
the outdated data would not allow FTA to measure whether critical activities were
on schedule or whether estimated delays have increased. According to FTA, NJT
will not be required to submit an updated master schedule until 90 days prior to
applying for a full funding grant agreement—a date that is unknown at this time.

While FTA concluded that NJT’s draft financial plan was sufficient to enter final
design and support the early systems work agreement, FTA identified actions and
made 10 subsequent recommendations that would need to be finalized before a full
funding grant agreement is awarded. FTA also stressed that NJT must update the
draft financial plan prior to applying for a full funding grant agreement or as part
of the next annual New Starts rating cycle (for the fiscal year 2011 budget process)
to reflect any changes in assumptions that occur. The FMOC’s recommendations
include making the financial plan consistent with the baseline cost estimate that
FTA and NJT agreed to; NJT executing agreements with the Port Authority and
the New Jersey Turnpike Authority (Turnpike Authority) regarding distribution of
responsibilities for cost overruns; and developing a cash flow management plan.
Moreover, because FMOC's financial capacity assessment was based on NJT's
financial data through June 2008, it may not reflect current economic conditions
considering the upheavals in U.S. financial markets and the broader economy that
have occurred since that time.

Long-Term Cost and Schedule Risks Require Close Monitoring
FTA has identified “watch list” risks that could have a significant impact on
project costs and schedules over the long term and, therefore, require continued
                                                                                 10


close monitoring. First, NJT will need to complete its financial plan and
coordinate with Amtrak to facilitate the timely completion of the Portal Bridge—
critical for ARC’s ability to reach full operational capacity in 2030. The current
Portal Bridge, owned and operated by Amtrak, is an essential rail crossing for both
NJT and Amtrak systems in New Jersey. The purpose of the project is to improve
system reliability and provide additional rail capacity for NJT and Amtrak. NJT’s
draft financial plan shows a $728 million commitment from NJT for the Portal
Bridge project and assumes Amtrak will provide the remaining funding needed—
approximately $472 million. In August 2009, FTA reiterated to NJT that it will
need to identify a complete and reasonable financial plan for the $1.2 billion
replacement of the Portal Bridge in New Jersey prior to executing the full funding
grant agreement. In September 2009, NJT and Amtrak reached an agreement on
each entity's obligations for the Portal Bridge's next phases. However, the
agreement notes that these obligations are subject to funding availability.

Second, environmental and geotechnical investigations have to be conducted on
the 423 properties NJT needs to acquire by 2012 for ARC to continue to move
forward. According to an August 2009 PMOC report, NJT’s consultant engineers
stated that if critical environmental and geotechnical data were not available in
time to meet the 2012 deadline, the project’s final design would need to be redone
when the data are provided. The PMOC further noted in a September 2009
monthly report that delays in obtaining the rights for access to properties in New
York and New Jersey to complete geotechnical and environmental investigations
would delay design activities, which are on the critical path to project completion.

Finally, ARC’s timely completion relies on procuring and testing 22 dual-powered
locomotives, which will be needed to serve projected full capacity ridership in
2030. The first pilot locomotive, scheduled for delivery in July 2011, will be
tested at a Federal Railroad Administration (FRA) testing facility in Colorado and
on NJT’s rail system. Accordingly, effective coordination with FRA is essential to
ensuring needed testing occurs in a timely manner and the locomotives meet all
applicable requirements and FRA safety standards.

UNCERTAIN FUNDING PRESENTS PROJECT IMPLEMENTATION
AND COMPLETION CHALLENGES
FTA must ensure that NJT addresses several project funding challenges before
executing a full funding grant agreement. The ARC’s complex financing structure
relies on future funding from various Federal, state, and local agencies. As of
January 2010, full Federal funding had yet to be approved, and the long-term
availability of local funding was uncertain. If one or more of these funding
sources is disapproved or unavailable in the amounts assumed in the draft financial
plan, NJT will be challenged to keep the project progressing as scheduled.
                                                                                                 11


Until its estimated completion in 2017, ARC will need substantial funding from
various sources, as shown in table 2. The early systems work agreement commits
only a portion of the total Federal funding that NJT’s draft financial plan assumes.
In the past, FTA warned NJT that its assumptions for annual New Starts
appropriations were significantly higher than Congress has historically given to
any single transit project and exceeded levels FTA previously discussed with NJT.
FTA and NJT are still in the process of agreeing on the final funding projections
that will be used in the full funding grant agreement, according to FTA. Also, the
full funding grant agreement may be significantly delayed. FTA may not have
sufficient commitment authority—the overall level of New Starts funding
authorized by Congress—to execute a full funding grant agreement until a new
surface transportation authorization law is enacted. According to FTA, the fiscal
year 2010 appropriations act (Pub. L. No. 111-117) allows the Secretary to issue
new full funding grant agreements outside the normal commitment authority
calculation during fiscal year 2010 only, which ends on September 30, 2010.
Whether this exception to the normal limits on commitment authority may extend
into fiscal year 2011 or beyond will depend on the terms of future legislation.

                       Table 2. ARC Funding by Source1
                                   (Dollars in Millions)

                      Funding Source                                Amount

     State/Local       Port Authority                                     $3,000.00

                       New Jersey Turnpike Authority                      $1,250.00

                       Subtotal                                           $4,250.00

     Federal           FTA New Starts (Total)2                            $3,000.00

                       FHWA CMAQ/NHS Flex3                                $1,319.98

                       ARRA                                                 $130.00

                       Subtotal                                           $4,449.98

     Total                                                                $8,699.98
 Source: FTA's Annual Report on New Starts Funding Recommendations, Fiscal Year 2011
 1
    The amounts shown in table 2 reflect those included in NJT's financial plan.
 2
    Of this amount, the early systems work agreement commits $395 million as the initial installment
    towards the $3 billion FTA intends to provide to ARC under a full funding grant agreement.
 3
    New Jersey Transportation Planning Authority proposed to flex $1 billion in Federal Highway
    Administration (FHWA) National Highway System (NHS) or Congestion Mitigation and Air Quality
    (CMAQ) program funds.

The long-term availability of local funding sources is also uncertain. FTA had
concerns about the Port Authority’s and Turnpike Authority’s capacity to provide
                                                                                                                   12


promised funding, totaling $4.25 billion, and delayed the financial capacity
assessments for these funding sources. Such assessments are required before a full
funding grant agreement can be awarded, but FTA determined that a detailed
examination in August 2009 would not have been useful because of volatile credit
market conditions, and decided to defer the assessments until closer to the time
when ARC will be considered for the full funding agreement. 9 FTA proceeded
with an early systems work agreement without fully examining either Authority’s
ability to provide the promised funds—potentially jeopardizing the timely
completion of the project if the Port Authority or the Turnpike Authority cannot
provide their share or cover any cost overruns.

In its fiscal year 2010 and 2011 New Starts rating assessments, FTA expressed
concerns about the long-term availability of funding from the New Jersey
Transportation Trust Fund Authority. Projections provided by the Trust Fund
indicate that all of its revenues are fully programmed to cover current and
authorized debt service through fiscal year 2028. This leaves no funds for ARC
and other capital projects that are dependent on future allocations from the
Transportation Trust Fund, including NJT's state-of-good-repair. The FMOC
stated that NJT must provide a more precise plan as to how these funds will be
made available, as well as its priorities for modifying the capital program should a
lesser amount of funds be made available from the Transportation Trust Fund.

Despite these risks, NJT and other project partners had not reached an agreement
on who will be responsible for cost overruns. Before executing a full funding
grant agreement, FTA must assess NJT’s financial capacity to complete the project
as designed and cover potential cost overruns. Specifically, FTA needs assurance
that the full funding grant agreement will be supported by an amended general
project agreement between NJT and the Port Authority that clearly states how they
will allocate responsibility for cost overruns and cover the impact of any delays in
receiving Federal New Starts funds. The current general project agreement, dated
March 2009, states only that NJT and the Port Authority will work together in
good faith to secure additional funds in the event of cost overruns. FTA also
wants NJT to provide a final agreement with the Turnpike Authority, formalizing
its financial commitment to the project and addressing the respective roles and
responsibilities of the agencies, including the Turnpike Authority’s participation in
funding cost overruns.




9
    In March 2008, FTA performed a brief review of the Port Authority’s financial capacity, but this was not a detailed
    examination that would fulfill FTA's full funding grant agreement requirements.
                                                                                                               13


MANAGEMENT CONTROLS ARE INSUFFICIENT TO COMBAT
THE RISK OF FRAUD, WASTE, AND ABUSE
Based on lessons learned from our past projects and fraud prevention work in
New York and New Jersey, we concluded that ARC's management controls are
insufficient to detect fraud and ensure construction integrity. Our conclusion was
based, in part, on the fact that FTA did not request NJT to document its fraud
prevention program in the project management plan, as FTA had done on other
major projects. Further, NJT opted not to use an independent private-sector
inspector general (IPSIG) 10 on the project—despite evidence that an IPSIG can
help identify problems, such as internal control weaknesses, contractor integrity
and ethics lapses, and infiltration of organized crime, in real time. OIG and other
agencies have cited using IPSIGs as a best practice on large construction projects
in New York and New Jersey, such as the New York Metropolitan Transportation
Authority's (MTA) Fulton Street Transit Center. In October 2009, the Governor of
New Jersey, issued an executive order that required the State Comptroller to
ensure the adequacy of internal controls and determine whether additional
oversight is needed to keep the project within budget. Our assessment of the state
executive order concluded that it did not provide sufficient details on the
Comptroller's responsibilities for fraud prevention or investigations. Employing
additional fraud controls is imperative to protect the significant Federal and local
investment in ARC given the magnitude of construction contracts to be awarded,
the emphasis ARRA places on fraud prevention, and the history of malfeasance in
the construction industry in New York and New Jersey.

Fraud and Contractor Integrity Provisions Were Not Included in the
Project Management Plan
FTA did not request NJT to include a chapter in ARC’s project management plan
that documents its fraud prevention program and clearly assigns responsibility for
preventing, detecting, and following up on instances of fraud, waste, or abuse. In
contrast, FTA did require Lower Manhattan Recovery Project sponsors, including
the MTA and the Port Authority, to include a fraud section in their project
management plans. In October 2006, FTA’s Lower Manhattan Recovery Office
directed its project sponsors to revise their project management plans to describe
what actions they were taking to minimize opportunities for contractor fraud; and
FTA stated that each sponsor must implement a proactive, structured program to
protect the Federal investment from unscrupulous contractors.




10
     An IPSIG is an independent firm with legal, auditing, and investigative skills, employed by an organization to
     ensure compliance with relevant laws and regulations and to prevent, uncover, and report unethical and illegal
     conduct.
                                                                                                    14


When we inquired whether FTA would apply similar fraud and contractor
integrity requirements to the ARC's project management plan, FTA Region II staff
told us no—that this was not the normal approach, and the Lower Manhattan
Recovery Project sponsors were required to have a fraud section because the
projects were 100 percent federally funded. In our opinion, ARC should be
required to meet the same standards that FTA placed on the Lower Manhattan
Recovery Projects because of the similarity in the overall Federal funding
provided, project complexity, and the potential fraud environment in New York
and New Jersey. In addition, the Office of Management and Budget's (OMB)
ARRA implementation guidance directed agencies to be aggressive in mitigating
instances of fraud, waste, and abuse on projects receiving ARRA funding, such as
ARC. Enhancing the project management plan to include documentation of a
robust fraud program would be consistent with OMB’s guidance.

Use of Integrity Monitors To Help Combat Fraud Was Rejected
In a July 2006 testimony on lessons learned from large transportation projects, 11
we reported on the value of hiring integrity monitors, also known as IPSIGs, on
major projects in geographic areas where the risk of fraud is high—as is the case
in New York and New Jersey. Despite the benefits and widespread use of
integrity monitors in New York and New Jersey, in September 2009, NJT officials
informed us they were not using an IPSIG on ARC. Based on our years of
monitoring major construction projects in the region, we believe NJT should
reconsider its decision.

IPSIGs can be valuable in serving as the “eyes and ears” of management on the
ground by helping to oversee what happens in real time, from procurement
through completion of the various stages of construction. Moreover, IPSIGs can
provide immediate feedback on corrective actions to address problems related to
internal control weaknesses, contractor integrity and ethics, conflicts of interest,
infiltration of organized crime, or deviation from standard procedures or
regulatory guidelines. IPSIGs can also add value when they report their findings
to an independent oversight entity experienced in fraud investigations, such as an
agency's inspector general. The impact of the preventive measures employed by
IPSIGs cannot be readily quantified, but deterring fraudulent behavior allows a
project to be completed with fewer unnecessary and costly distractions.

Other FTA sponsors have used IPSIGs in conjunction with their inspectors
general, and stepped up their counter-fraud efforts in recent years. For example,
MTA—another large FTA sponsor in New York, with a capital budget of nearly


11
     OIG Testimony Number CC-2006-056, “Lower Manhattan Reconstruction: Lessons Learned from Large
     Transportation Projects,” July 13, 2006. OIG reports and testimonies are available on our website:
     www.oig.dot.gov.
                                                                                15


$28 billion—has recognized the serious risks posed by fraud on transportation
projects in the region. MTA uses IPSIGs on some of its larger projects, including
those receiving ARRA funding, and MTA officials have publicly touted the
benefits of this approach to enhancing in-house oversight capabilities.

CONCLUSION
The ultimate success of ARC in meeting cost and schedule targets will depend, to
a large degree, on FTA's ability to ensure that NJT takes effective and timely risk
mitigation actions for the duration of this complex project. FTA's decision to
award an early systems work agreement may keep the project within budget and
on schedule but is not without significant risk. The fact that project construction
was allowed to begin before NJT satisfactorily addressed the concerns FTA and its
oversight contractors previously raised underscores the need for FTA to continue
providing an enhanced level of oversight. While FTA has taken proactive steps to
increase its oversight of ARC—as evidenced by requiring a project execution plan
and developing a roadmap for NJT to follow in order to receive a full funding
grant agreement—more action is needed to complete oversight documents and
implement fraud controls that are designed to protect the significant Federal
investment, including the ARRA funds that ARC received. The President and
Congress have called for unprecedented levels of accountability and transparency
in the ARRA program. Accordingly, we are making a series of recommendations
to advance FTA's efforts to have a full complement of oversight tools to hold NJT
accountable for carrying out a high degree of risk mitigation and for exhibiting
sound management practices.

RECOMMENDATIONS
We recommend that the Federal Transit Administrator identify FTA's planned
actions to:

1. Work with NJT to promptly finalize the project management plan, project
   execution sub-plans, and financial plan;

2. Ensure that NJT continues to coordinate with other stakeholders to address the
   watch list risk items in a timely and effective manner;

3. Obtain amended project agreements between NJT and the Port Authority and
   the Turnpike Authority regarding distribution of responsibilities for any future
   cost overruns;

4. Work with NJT to update the project's master schedule and ensure it ties
   together the work of all contracts;
                                                                                16


5. In light of new ARRA oversight requirements, include a fraud and contractor
   integrity chapter in the project management plan and assess whether NJT has
   adequate management controls in place to prevent fraud, waste, and abuse on
   ARC; and

6. Issue written guidance on developing a project execution plan for major New
   Starts projects, including all of the required elements.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FTA for review and comments on March 17,
2010. FTA provided us its formal comments on May 3, 2010, and technical
clarifications on April 20, 2010, which we incorporated, as appropriate. FTA’s
complete comments are included as the appendix to this report.

FTA’s comments expressed concern that some of the draft report's conclusions did
not clearly recognize risk factors that FTA had previously identified or that FTA
has repeatedly advised NJT that fulfillment of project requirements and procedures
are necessary before executing an ARC full funding grant agreement. FTA also
stated that the award of the early systems work agreement was in accordance with
authorized statute and is a legitimate part of project development within the New
Starts process. For example, FTA noted that its decision to grant the early systems
work agreement to NJT was made in part to avoid delays and higher costs, even
though the completed project execution plan and sub-plans were not delivered. In
addition, FTA commented that it has provided appropriate guidance and
assistance, via meetings, letters and emails, to NJT, and is convinced that any
delays in receiving finalized documents are due to a combination of project
complexity; grantee inexperience; and, at times, NJT's unwillingness to develop
policies and procedures consistent with FTA’s programmatic requirements.

We believe that our report presented an accurate assessment of ARC’s status. In
response to FTA's comments, we revised the report, as appropriate, to further
emphasize FTA's efforts to provide proactive oversight of ARC and to note that
NJT has not provided acceptable documents to FTA. Further, we do not challenge
the legal basis of the early systems work agreement, nor do we question the
appropriateness of using this statutory provision to help keep the project within
budget and on schedule. However, we continue to believe that the decision to
award the early systems work agreement and to allow NJT to incur significant
Federal costs—while NJT has not complied with full funding grant agreement
requirements—has risks associated with it. Specifically, FTA's oversight toolbox
does not contain the fully developed project management plan and finalized
project execution sub-plans tools, even though construction is proceeding.
                                                                                   17



FTA concurred with five of our recommendations and partially concurred with the
sixth. FTA stated that it has taken or is planning to take the following actions on
specific recommendations.

Recommendation 1: Concur. FTA commented that it has emphasized that the
ARC project will not be considered for a full funding grant agreement unless all
required plans are completed to FTA’s satisfaction. FTA will continue to work
with NJT to develop the project management plan, project execution sub-plans,
and a financial plan. FTA emphasized that development of these plans is the sole
responsibility of NJT and the prompt completion of these plans will depend on
actions taken by NJT. FTA stated that it would provide a comprehensive and
expeditious review of the plans developed by NJT and offer feedback and
recommendations for improvements as needed. FTA expects to receive all of the
required information from NJT in the 3rd Quarter of fiscal year 2010.

OIG Response: We consider the actions planned by FTA to be responsive to the
recommendation and acceptable. However, the recommendation will remain open
until FTA provides us with the information it receives from NJT so we can review
it to ensure FTA's actions were fully responsive to our recommendation.

Recommendation 2: Concur. FTA commented that the timely completion of
watch list items is critical to ensuring that the ARC project remains within budget
and on schedule, and that timeliness is largely contingent on NJT taking prompt,
effective, and constructive action. FTA stated that it will continue to monitor
NJT’s actions and provide oversight to ensure that NJT is adequately
accomplishing this coordination.

OIG Response: We agree with the actions FTA has taken and plans to take to
continue its monitoring of the watch list items. These actions meet the intent of
the recommendation and are sufficient to close it.

Recommendation 3: Concur. FTA commented that NJT has verbally informed
FTA that NJT, not the Port Authority or the Turnpike Authority, will be
responsible for cost overruns or delays in the receipt of Federal funds during
construction. FTA believes that amended project agreements are not expected to
be necessary. According to FTA, NJT has been informed that when it submits a
revised financial plan in support of the full funding grant agreement, it must
include adequate details on how NJT plans to cover cost overruns and/or delays in
the receipt of Federal funds, should they occur, and that if there is any need to rely
on funding from other parties, any necessary supporting agreements to that effect
must be included with the plan.
                                                                                  18


OIG Response: We agree with the actions FTA is taking and plans to take to
address the intent of our recommendation. However, the recommendation will
remain open until FTA provides us with NJT's financial plan to ensure that FTA's
actions were fully responsive to our recommendation.

Recommendation 4: Concur. FTA reiterated that NJT must submit a master
schedule, and FTA will use this schedule in its deliberations with NJT as it
negotiates a full funding grant agreement. FTA reiterated that NJT is responsible
for developing the master schedule.

OIG Response: We agree with the actions FTA is taking and plans to take to
address the intent of our recommendation. However, the recommendation will
remain open until FTA submits NJT's approved master schedule for us to review
to ensure the actions taken were fully responsive to our recommendation.

Recommendation 5: Concur. FTA agreed that the size and complexity of the
ARC project requires additional efforts to prevent fraud, waste, and abuse. FTA
will require that the ARC project management plan, and all mega-projects, include
provisions to account for fraud and contractor integrity regardless of whether the
projects receive ARRA funding. In other comments, FTA agreed that project
sponsors of ARC and other mega-projects should consider using IPSIGs. FTA
stated that, while it does not have the legal authority to require NJT to utilize an
IPSIG, FTA will recommend that NJT use an IPSIG on ARC.

OIG Response: We agree with the actions FTA plans to take to address the intent
of our recommendation. However, we request that FTA provide us with a revised
ARC project management plan that contains fraud and contractor integrity
provisions and a copy of its recommendation to NJT to use an IPSIG. Our
recommendation will remain open until FTA submits this documentation for us to
review to ensure that the actions taken were fully responsive to our
recommendation.

Recommendation 6: Concur, in part. FTA recognized the importance of its
project development requirements, as well as the documentation necessary to
fulfill these requirements. According to FTA, there are lessons learned from the
ARC project development process that FTA intends to build into proposed project
management requirements. FTA also stated that it is proceeding with the
development of a Notice of Proposed Rulemaking on Project Management (49
C.F.R. Part 633) that will capture lessons learned from the ARC project and other
capital projects. During the course of this effort, FTA will be seeking to identify
whether there are tools that could enable it to further enhance both grantee project
management and FTA’s oversight processes, especially for mega-projects. FTA
responded that it is looking at how to best incorporate some of the tools that are in
                                                                              19


the ARC project execution plan into standard processes and will subsequently
develop any necessary guidance.

OIG Response: We recognize that the ARC is unique due to its technical
complexity and the amount of funds invested, but we continue to believe that a
more formalized guidance document would have assisted NJT in developing
acceptable project documents. We agree with the actions FTA plans to take to
address the intent of our recommendation. Based on FTA’s comments, we
consider these actions as meeting the intent of the recommendation and sufficient
to close it.

ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
FTA provide us with target action dates for submitting supplemental
documentation for recommendations 1, 3, 4, and 5 within 30 calendar days of the
date of this report.

We appreciate the courtesies and cooperation of FTA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Thomas Yatsco, Program Director, at (202) 366-1302.


                                       #
                                                                                20




EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate FTA’s oversight. Specifically, we (1) determined
whether project risks were identified and strategies were implemented to mitigate
the risks; (2) identified any challenges faced in ensuring sufficient funding;
and (3) assessed NJT’s controls for combating fraud, waste, and abuse. We
evaluated FTA’s oversight of ARC, based on the OIG Framework for Evaluating
FTA’s Oversight of Major Transit Projects. The key components of this
framework evaluated whether:

   • baseline cost and schedule estimates are realistic;
   • the Federal share of the funding is available and whether reliable local
     funding source(s) exist to cover the non-Federal share of project costs;
   • the project has a clear, transparent, organizational structure and the project
     sponsor is exhibiting sound project management practices;
   • disagreements about project design and alignment have been resolved and
     any needed third party agreements have been reached or negotiations are
     progressing in a productive manner;
   • the project meets the New Starts evaluation criteria and FTA guidance and
     requirements for federally funded projects;
   • project management oversight contractors and financial management
     oversight contractors have conducted comprehensive, independent reviews
     of the project in accordance with FTA’s guidance and requirements; and
   • FTA and the project sponsor have agreed to mitigation strategies to address
     key project risks identified by FTA’s oversight contractors.

We reviewed FTA documents and New Starts criteria related to ARC’s oversight.
Also, we reviewed FTA’s budgets and staffing levels and a FTA Headquarters
workforce assessment. We reviewed the PMOC monthly reports; FMOC
assessments; FTA’s grant agreements and amendments; NJT’s ARRA and early
systems work agreement applications; and ARC’s project execution plan, project
management plan, and Risk Register. These documents highlight the costs,
funding, and schedule status of ARC and provide an update on the risks related to
the project.

We conducted interviews with officials from FTA’s Headquarters and Region II
offices, NJT, and key stakeholders, including the Port Authority and Amtrak. Our
audit was conducted at FTA Region II in New York, New York, and NJT in

Exhibit A. Objective, Scope, and Methodology
                                                                               21


Newark, New Jersey. Team members were continuously alert to current events
impacting ARC as reported by local media and for indications of fraud, waste, and
abuse.

OIG engineers assisted in the evaluation of FTA’s oversight of ARC. They
reviewed PMOC products, evaluated the risk mitigation plans developed by NJT,
and reviewed the project’s cost and schedule estimates.

In addition, within the context of the audit objective, the Government
Accountability Office Government Auditing Standards for internal controls
requires auditors to assess whether internal controls have been properly designed
and implemented by the organization for the purpose of protecting its resources
against waste, fraud, and inefficiency.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. The audit was conducted between January 2009
and March 2010.




Exhibit A. Objective, Scope, and Methodology
                                                                          22



EXHIBIT B. TIMELINE OF ARC'S PROGRESS IN FTA'S NEW
STARTS PROCESS




                                                                    Selected Locally
                                                                    Preferred Alternative
                                                                    (LPA) March 2006




                                                                    Entered Preliminary
                                                                    Engineering (PE)
                                                                    August 2006


                                                                    Latest schedule
                                                                    based on
                                                                    January 2008 data

                                                                    Latest draft
                                                                    financial plan
                                                                    December 2008


                                                                    Record of Decision
                                                                    (ROD)
                                                                    January 2009


                                                                    Entered final design
                                                                    (FD) January 2009


                                                                    Early systems work
                                                                    agreement
                                                                    August 2009


                                                                    Construction began on
                                                                    Tonnelle Ave. June
                                                                    2009; In November
                                                                    2009, cost proposals
                                                                    for the Manhattan
                                                                    Tunnels Design/Build
                                                                    contract were due and
                                                                    were opened.


Exhibit B. Timeline of ARC’s Progress in FTA’s New Starts Process
                                                            23



EXHIBIT C. CONTRIBUTORS TO THIS REPORT

   Name                                  Title

   Thomas Yatsco                         Program Director

   George Lavanco                        Project Manager

   Regan Maund                           Senior Analyst

   Joseph Tschurilow                     Auditor

   Rosa Scalice                          Auditor

   Michael Dzandza                       Auditor

   Rodolfo Pérez                         Engineer Advisor

   Anne-Marie Joseph                     Senior Engineer

   Aron Wedekind                         Engineer

   Harriet Lambert                       Writer-Editor




Exhibit C. Contributors to This Report
                                                                                                        24




            APPENDIX. AGENCY COMMENTS

                                                               Memorandum
            U.S. Department
            of Transportation
            Federal Transit
            Administration

Subject:     ACTION: FTA Management Response to Office of              Date:     May 03 2010
             Inspector General (OIG) Draft Report, "Actions Needed
             to Increase FTA's Oversight and Mitigate Risks
             Associated with the Access to the Region's Core
             Project."
  From:      Peter Rogoff, Administrator                             Reply to
             Federal Transit Administration
                                                                     Attn. of:   Timothy P. Steinitz,
                                                                                 202-366-3996
      To:    Joseph W. Comé
             Assistant Inspector General
               for Surface and Maritime Program Audits

       Existing Federal Transit Administration (FTA) processes are designed to ensure that all
       necessary elements are in place before a Full Funding Grant Agreement (FFGA) is approved
       or funding is provided for the Access to the Region’s Core (ARC) Project. Given the size,
       complexity, and importance of the ARC project to the economy of the New York / New
       Jersey region and the northeastern United States, FTA continues to work closely with the
       project sponsor and manager, the New Jersey Transit Corporation (NJT), to monitor the ARC
       project and to ensure that NJT meets the requirements of FTA’s New Starts and Project
       Management Oversight (PMO) programs.

       For accuracy, the OIG report needs to more clearly enumerate and acknowledge FTA’s
       existing procedures, designed to control cost and schedule, which were in place as the ARC
       project entered the New Starts pipeline. These actions are taken by FTA to ensure that project
       requirements will be fully and appropriately implemented. As currently drafted, the reader is
       led to the erroneous conclusion that pending project issues are attributable to FTA’s lack of
       appropriate controls. Rather, the issues are primarily related to how rigorously the procedures
       are being implemented by the project sponsor. In fact, FTA has repeatedly advised NJT that
       fulfillment of project requirements and procedures are necessary before a FFGA will be
       considered for the ARC project. The draft report needs to clarify that core project
       management and cost control processes are clearly established within the parameters of the
       New Starts program. Moreover, the OIG should clarify that the issues identified in the report
       have come to light as a result of FTA applying its procedures and sharing that information
       with the OIG.



  Appendix. Agency Comments
                                                                                                  25


  FTA’s New Starts program is one of the largest discretionary programs in the Federal
  government and is subject to very strict statutory requirements that are reflected in detailed
  rules and guidance. In addition, this program receives a high level of oversight by program
  and subject matter experts. FTA is following clear steps and specific requirements for
  projects in the New Starts program to progress from stage to stage of the project development
  process. One of the benefits of the final design stage in the process is to allow the project to
  finalize appropriate project management documents suitable to the nature and scale of the
  project. FTA will ensure that such documents are in place by the time the FFGA is executed.

  The draft report is also inaccurate in its assessment that granting an Early Systems Work
  Agreement (ESWA) “removes any incentive for NJT to address FTA’s concerns” regarding
  the lack of a risk management sub-plan, and that this decision “potentially jeopardized” the
  project’s costs and schedules. Moreover, the draft report is also inaccurate in stating that FTA
  is “fast-tracking the ARC project outside the prescribed New Starts process.” First, the use of
  an ESWA is authorized in statute under the New Starts program, and is a legitimate part of
  project development within the New Starts process. It is a useful New Starts tool that is
  deployed only when needed to help projects maintain cost and schedule, including when there
  is a potential for issuing an FFGA. Second, because NJT is using design/build contracts, not
  granting an ESWA would definitely have jeopardized the ability of NJT to keep the project on
  schedule and within budget. The OIG says as much on page 6 of the draft report, stating that
  FTA’s decision to award an ESWA was made “in part to avoid project delays and higher
  costs.” FTA’s decision to grant an ESWA to NJT was based on that certainty, even though
  the completed Project Execution Plan (PEP) and sub-plans were not yet delivered. Third,
  significant incentive remains to develop the necessary project management tools, as an FFGA
  will only be issued with their satisfactory completion. Before being awarded an FFGA, NJT
  and FTA will complete an updated risk assessment to help define the cost and schedule for the
  project. FTA will assure that potential project risks, such as NJT’s ability to access
  committed funds, are identified up front and that NJT takes action to mitigate these risks. In
  summary, the ESWA was a necessary interim step intended to make long-term management
  and completion of the ARC project more efficient and less costly.

  In accordance with its existing statutory and programmatic requirements and structure, FTA
  has ensured that appropriate project review and project management oversight, including
  mechanisms to inform the grantee of potential risks related to fraud, waste and abuse, are in
  place for this project. FTA can, and does, tailor its oversight processes to fit the type and size
  of the project, as well as to accommodate the experience and background of the project
  sponsor. FTA agrees that the size, scope and complexity of the ARC project require a special
  level of oversight, as reflected in its actions to date. FTA is committed to assisting NJT as it
  completes all necessary FFGA requirements and will continue to provide comprehensive
  oversight for the ARC project.

  FTA recognizes that the project’s success will depend on strong and effective oversight by the
  FTA, but just as importantly, a positive, proactive, and constructive approach to project
  management by NJT.




Appendix. Agency Comments
                                                                                                26

  FTA Continues to Work Closely with NJT to Ensure Required Documents are
  Completed

  FTA recognizes the importance of its project development requirements, as well as the
  documentation necessary to fulfill these requirements, and has been working to ensure that
  these requirements are fulfilled with regard to the ARC project prior to the award of an FFGA.
  The OIG draft report lends support to FTA’s efforts with regard to the need for NJT to
  provide FTA with fully developed project documents for the ARC project. Up to this point,
  NJT has failed to provide fully developed project documents to FTA in their initial and
  follow-on submittals. While it is useful to have a number of these submittals completed as
  early as possible, the deadline for completing many of these documents is tied to the award of
  the FFGA. To aid NJT’s efforts and to eliminate potential ambiguity, last October FTA
  provided NJT with a document checklist (or roadmap) of all the actions that need to be
  completed prior to the FFGA. This roadmap is updated periodically, with the latest update on
  March 10, 2010. The FTA Administrator and the Secretary recently used this checklist in
  discussions with the New Jersey Governor as a means of fully informing the Governor of the
  actions necessary for the project to proceed. FTA has provided appropriate guidance and
  assistance, via meetings, letters and email, to the grantee and is convinced that any delays in
  receiving finalized documents are due to a combination of project complexity, grantee
  inexperience and sometimes an unwillingness to develop policies and procedures consistent
  with FTA’s programmatic requirements.

  It is for these reasons that FTA disagrees with the OIG’s conclusion that FTA did not provide
  NJT adequate guidance in developing PEP sub-plans. FTA believes the issue lies with the
  grantee’s timely response to such guidance. FTA remains committed to providing assistance
  and guidance to NJT within the “go/no-go” project threshold and that programmatic
  requirements be fulfilled prior to awarding an FFGA to the ARC project. Finally, FTA is
  working to ensure that NJT completes a detailed baseline project schedule (tied to individual
  contract schedules) and a schedule management plan prior to awarding the FFGA. These
  actions are required as part of the roadmap and FTA agrees that completing these documents
  will be critical to assessing the project’s progress. In addition, schedule adherence will
  remain a key element of each quarterly review meeting as the project progresses.

  There are lessons learned from the ARC project development process that FTA intends to
  build into proposed project management requirements. FTA is proceeding with the
  development of a Notice of Proposed Rulemaking on Project Management (49 CFR Part 633)
  that will capture lessons learned from the ARC project and other capital projects. During the
  course of this effort, FTA will be seeking to identify whether there are tools that could enable
  it to further enhance both grantee project management and FTA’s oversight tools and
  processes, especially for mega-projects (projects with capital costs over $1 billion) such as
  ARC. Although not specifically discussed in the Advanced Notice of Proposed Rulemaking,
  FTA is looking at how to best incorporate some of the tools that are in the ARC project PEP
  into standard processes and will subsequently develop any necessary guidance supporting
  these enhanced tools and processes that are included in the final rule.

  FTA will Conduct a Financial Capacity Assessment of ARC before Awarding an FFGA



Appendix. Agency Comments
                                                                                              27

  It was FTA that identified the funding issues that are mentioned in the OIG draft report. NJT,
  through the roadmap, is well aware that it must develop a revised financial plan so that FTA
  can conduct an updated Financial Capacity Assessment before the ARC project will be
  considered for an FFGA. The draft report notes that FTA delayed performing reviews of the
  availability of the Port Authority of New York / New Jersey’s (Port Authority) and Turnpike
  Authority’s funding sources due to economic uncertainty in general and the bond markets in
  particular and admonishes that this review must be done. We agree as to the necessity of this
  review; however, quickly changing market conditions would render an early examination by
  FTA of these sources obsolete prior to a decision on the FFGA. FTA will perform this review
  at the point in the project sequence when it is appropriate and meaningful.

  FTA has a strict process for conducting these financial assessments. While FTA awarded an
  ESWA to NJT without completing a new examination of the availability of Port Authority
  funds, the financial risk resides with NJT, which would be required to reimburse FTA should
  an FFGA for the ARC project not be awarded. Furthermore, as mentioned above, in February
  2010, the FTA Administrator and the Secretary spoke with New Jersey’s new Governor about
  the Department’s concerns regarding funding, the potential for cost overruns on this project,
  and how any overruns would be funded. These concerns were reinforced in a March 26, 2010
  letter to the Governor. The Governor reiterated New Jersey’s commitment to the project in a
  letter dated April 7, 2010. Similar concerns were also expressed in a March 29, 2010 letter to
  the Port Authority. The Port Authority confirmed its commitment to the project in an
  attachment to the Governor’s April 7, 2010 letter to FTA.

  The report also raises a concern about whether the unavailability of contingent commitment
  authority beyond Fiscal Year (FY) 2010 could delay the project. Whether this exception to
  the normal limits on commitment authority may extend into FY 2011, or beyond, will depend
  on the terms of future legislation – both an FY 2011 appropriations bill and the eventual
  legislation to extend or amend the authorization statute. Since the Federal New Starts share
  for this project is capped at $3 billion, halting the project because of the uncertainty with
  commitment authority could result in cost escalation, which would need to be borne by local
  taxpayers since any increase in cost must be paid for from higher local contributions.

  FTA Conducts Extensive Activity to Prevent Fraud, Waste and Abuse

  FTA has strong and comprehensive processes in place to prevent fraud, waste and abuse on all
  projects receiving FTA funding, including those funded by the Recovery Act. FTA makes
  constructive use of all opportunities to reinforce its commitment to address these issues, both
  in writing and verbally. For example, FTA provides training opportunities for contractors and
  grantees to be aware of potential fraud. This topic is also addressed as a component of all
  agency grant reviews, Triennial Reviews, Project Management Oversight Contractor (PMOC)
  reviews and general financial audits.




Appendix. Agency Comments
                                                                                                     28

     As the OIG indicated in its recent report on Recovery Act Implementation, 12 FTA is making
     efforts to combat fraud in Recovery Act funding. FTA is continuing this effort and invites
     representatives from the OIG to make presentations on ways to recognize and mitigate fraud,
     waste and abuse at all FTA-sponsored oversight conferences and workshops. These
     workshops are regularly attended by FTA staff, contractors and grantees.

     FTA shares the OIG’s concerns about the lack of specific measures in place to monitor the
     ARC project’s efforts to prevent fraud and abuse. However, this concern arises not primarily
     because the ARC project includes Recovery Act funds, but because of the large Federal
     investment in this project. In July 2009, following a series of discussions between the FTA
     Administrator and former New Jersey Governor Jon Corzine, FTA transmitted an email to the
     Governor and the New Jersey comptroller commenting on a proposed Executive Order (EO)
     from the Governor which would provide for greater monitoring of the ARC project. FTA
     shared this draft EO with OIG, which recommended changes to the text of the EO and
     commented that no role was specifically identified for New Jersey’s OIG as part of this
     process. However, the OIG stated that while this was a matter of concern, it was a “state
     matter.” FTA forwarded recommended changes in the EO language, along with its own
     comments, which the Governor incorporated into the final EO.

     While this draft report identifies utilizing an independent private-sector inspector general
     (IPSIG) as a best practice for projects receiving large amounts of Federal funding, this
     approach is not standard practice for New Starts projects. The OIG did note that the Fulton
     Street Transit Center project in Lower Manhattan did utilize an IPSIG and FTA agrees that
     this project and other mega-projects do require considerations for IPSIGs. While FTA does
     not have the legal authority to require NJT to utilize an IPSIG, as this is the State’s decision,
     FTA can, and will, recommend that NJT use an IPSIG for the ARC project.

     In addition, while fraud and contractor integrity are covered collectively by FTA’s current rule
     on project management oversight (Part 633.25 (a) through (j)), FTA is currently updating this
     regulation and will include a specific provision on waste, fraud and abuse for all mega-
     projects seeking Federal funding. In the meantime, FTA agrees that the size and complexity
     of the ARC project, and other mega-projects, require that such measures be identified and will
     require that the project management plan (PMP) for the ARC project and other mega-projects
     include provisions to account for fraud and contractor integrity.

     RECOMMENDATIONS AND RESPONSES

     Recommendation 1: Work with NJ Transit to promptly finalize the PMP, PEP sub-plans,
     and financial plan.

     Response: Concur. FTA emphasizes that the ARC project will not be considered for an
     FFGA unless all required plans are completed to FTA’s satisfaction. FTA will use the
     roadmap and continue to work with NJT to develop the PMP, PEP sub-plans and financial


12
  “DOT’s Implementation of the American Recovery and Reinvestment Act: Continued Management
Attention is needed to Address Oversight Vulnerabilities,” MH-2010-024, November 30, 2009.


Appendix. Agency Comments
                                                                                               29

  plan. FTA emphasizes that development of these plans is the sole responsibility of NJT. As a
  result, the prompt completion of these plans will depend on actions taken by NJT. FTA will
  provide a comprehensive and expeditious review of the plans developed by NJT and offer
  feedback and recommendations for improvements as needed. FTA expects to receive all of
  the required information from NJT in the 3rd Quarter of FY 2010.

  Recommendation 2: Continue coordinating with other stakeholders to ensure timely
  completion of watch list items.

  FTA Response: Concur. While timely completion of watch list items is critical to ensuring
  the ARC project remains within budget and on schedule, FTA again must emphasize that
  project management is the sole responsibility of the project sponsor (NJT) and that timeliness
  is largely contingent on NJT taking prompt, effective and constructive action. FTA will
  continue to monitor NJT’s actions and provide oversight and assistance to ensure that NJT is
  adequately accomplishing this coordination.

  Recommendation 3: Obtain amended project agreements between NJT and the Port
  Authority and the Turnpike Authority regarding distribution of responsibilities for any future
  cost overruns.

  FTA Response: Concur. NJT has verbally informed FTA that it, not the Port Authority or
  the Turnpike Authority, will be responsible for cost overruns or delays in the receipt of
  Federal funds during construction. Hence, amended project agreements are not expected to be
  necessary. NJT has been informed, however, that when it submits a revised financial plan in
  support of the FFGA request, it must include adequate details on how NJT plans to cover cost
  overruns and/or delays in the receipt of Federal funds, should they occur, and that if there is
  any need to rely on funding from other parties, any necessary supporting agreements to that
  effect must be included with the plan. This is in keeping with FTA’s normal practice for New
  Starts projects.

  Recommendation 4: Work with NJT to update the project’s master schedule and ensure it
  ties together the work of all contracts.

  FTA Response: Concur. FTA reiterates that NJT must submit a master schedule, and FTA
  will use this schedule in its deliberations with NJT as the proper cost and schedule to be
  included in the FFGA. As project sponsor, NJT is responsible for developing the master
  schedule, not FTA. While FTA will provide comprehensive and expeditious review of project
  planning documents from NJT, the project sponsor is responsible for completing and updating
  the master schedule.

  Recommendation 5: In light of new Recovery Act oversight requirements, include a fraud
  and contractor integrity chapter in the PMP to assess whether NJT has adequate management
  controls in place to prevent fraud, waste, and abuse on ARC.

  FTA Response: Concur. While fraud and contractor integrity are covered collectively by
  FTA’s current rule on project management oversight (Part 633.25 (a) through (j)), FTA agrees
  that the size and complexity of the ARC project requires additional efforts to monitor the


Appendix. Agency Comments
                                                                                              30

  project for potential fraud and abuse. FTA will require that the PMP for the ARC project, and
  all mega-projects, include provisions to account for fraud and contractor integrity regardless
  of whether or not the projects receive Recovery Act funding.

  Recommendation 6: Issue written guidance on developing project execution plans for New
  Starts projects, including all of the required elements.

  FTA Response: Concur, in part. As discussed above, FTA is considering the essential
  elements of PEPs and other project management strategies in its project management
  rulemaking currently underway (49 CFR Part 633, Project Management Oversight). FTA will
  pay special attention to specific needs applicable to mega-projects. While FTA will continue
  to provide technical assistance and guidance to NJT, it does not believe that standard written
  guidance will adequately address the unique needs and concerns applicable to individual New
  Starts projects.

                                          * * * * *

  Thank you for the opportunity to comment on the draft report. In addition to the comments
  above, FTA is attaching a number of technical edits and specific comments for the OIG’s
  consideration in finalizing its report. Please contact me at (202) 366-4040 with any questions
  or if we may be of further assistance.




Appendix. Agency Comments
